<html>
<title> - STRENGTHENING THE NATION'S WATER INFRASTRUCTURE: THE ARMY CORPS OF ENGINEERS' PLANNING PRIORITIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  STRENGTHENING THE NATION'S WATER INFRASTRUCTURE: THE ARMY CORPS OF 
                     ENGINEERS' PLANNING PRIORITIES

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ENERGY AND RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2006

                               __________

                           Serial No. 109-172

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-708                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                  Subcommittee on Energy and Resources

                 DARRELL E. ISSA, California, Chairman
LYNN A. WESTMORELAND, Georgia        DIANE E. WATSON, California
ILEANA ROS-LEHTINEN, Florida         BRIAN HIGGINS, New York
JOHN M. McHUGH, New York             TOM LANTOS, California
PATRICK T. McHENRY, North Carolina   DENNIS J. KUCINICH, Ohio
KENNY MARCHANT, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Lawrence J. Brady, Staff Director
                 Dave Solan, Professional Staff Member
                          Lori Gavaghan, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2006...................................     1
Statement of:
    Lamont, Douglas W., Deputy Assistant Secretary of the Army 
      for Project Planning, accompanied by Claudia Tornblom, 
      Deputy Assistant Secretary for Management and Budget, and 
      Thomas Waters, Chief, Planning and Policy; Anu Mittal, 
      Director, Natural Resources and Environment, Government 
      Accountability Office; Steve Ellis, vice president, 
      Taxpayers for Common Sense; and S. Elizabeth Birnbaum, vice 
      president for government affairs, American Rivers..........     6
        Birnbaum, S. Elizabeth...................................    43
        Ellis, Steve.............................................    33
        Lamont, Douglas W........................................     6
        Mittal, Anu..............................................    16
Letters, statements, etc., submitted for the record by:
    Birnbaum, S. Elizabeth, vice president for government 
      affairs, American Rivers, prepared statement of............    46
    Ellis, Steve, vice president, Taxpayers for Common Sense, 
      prepared statement of......................................    36
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................     4
    Lamont, Douglas W., Deputy Assistant Secretary of the Army 
      for Project Planning, prepared statement of................    10
    Mittal, Anu, Director, Natural Resources and Environment, 
      Government Accountability Office, prepared statement of....    18
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    69


  STRENGTHENING THE NATION'S WATER INFRASTRUCTURE: THE ARMY CORPS OF 
                     ENGINEERS' PLANNING PRIORITIES

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006

                  House of Representatives,
              Subcommittee on Energy and Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:02 p.m. in 
room 2203, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the subcommittee) presiding.
    Present: Representatives Issa and Watson.
    Staff present: Larry Brady, staff director; Lori Gavaghan, 
legislative clerk; Tom Alexander, counsel; Dave Solan, Ph.D., 
and Ray Robbins, professional staff members; Richard Butcher, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Mr. Issa. A working quorum under our rules being present, 
this meeting is called to order.
    Mr. Lamont, I'll begin by also saying I understand you have 
someone else from the Corps of Engineers who would like to be 
able to testify if areas outside of your expertise arise. They 
can come forward and just be here the whole time. That's fine.
    Mr. Lamont. Is it appropriate now?
    Mr. Issa. It's appropriate right now; that's fine.
    Mr. Lamont. Claudia Tornblom is the Deputy for Management 
and Budget in our Office of the Assistant Secretary.
    Mr. Issa. Excellent. At these hearings, we try to have the 
greatest amount of impact by having all of your staff 
available. I will mention in advance before I get to it in the 
script that we will swear in all who may testify and all who 
may assist you answering questions so that either whether they 
speak directly or they whisper in your ear and you reiterate, 
it's covered. We do that as a matter of committee policy in 
order to make it easier on you because the last thing we want 
to have is you're speaking somebody else's words and then 
you've been sworn and they haven't. So hopefully it works for 
all of us.
    The Army Corps of Engineers has a long and distinguished 
history of building and maintaining critical water resources 
and infrastructure in the United States. As we have witnessed 
in Hurricane Katrina, the Corps' traditional missions of flood 
control and navigation are as important as ever. And I would 
like to take a moment to personally thank the many Corps 
employees who have volunteered to work in the area devastated 
by Katrina. As I understand, a fairly significant, of the total 
transferrable work force is presently working in the Gulf. 
Again I'd like to thank the Corps for their service and their 
efforts.
    The Nation's existing infrastructure is the result of 
priority-setting, decisions and projects constructed in the 
past. For decades to come, infrastructure priorities that we 
set today and in the near future will impact commerce, 
electricity generation, wetlands, and most importantly, the 
safety of communities that depend on the Corps for flood 
protection. It is imperative that we have the tools and 
information to make the right choices.
    But the Corps faces a number of significant challenges in 
carrying out its mission. Funding for the Corps inevitably 
involves tradeoffs between congressionally authorized projects. 
And, unfortunately, critical maintenance of existing 
infrastructure is sometimes deferred because of other competing 
priorities.
    Next, financial management is another area of concern. It 
has become a common practice for the Corps to shift funds to 
meet the needs of the moment, which suggests that priority-
setting within the Corps is either lacking or not sustainable. 
And as the rest of the committee comes, I would like to take a 
moment to set a context for that, for your statements to come.
    I had the privilege of spending almost 2 years with the 
Corps of Engineers on active duty and as an executive officer 
of an engineering company. On more than a few occasions 
somebody managed to have enough construction sites that I had 
to have one bulldozer at two sites at one time. It is a fairly 
low-level decision. It requires that you put the bulldozer on a 
truck every day so that it is in both sites at some point 
during the day. Four hours on both sites, no problem. The 
problem is the 2-hours it takes to load the bulldozer, get it 
over there and unload it was lost time.
    Now that may be just a microcosm of what you are facing in 
the Corps of Engineers but it is a perspective that I put on 
it, that if we are asking you to have a bulldozer in two places 
at one time, if that requires an inefficiency, it leads to a 
greater total cost for those two projects and Congress needs to 
know that and Congress needs to take action.
    Third, the shortcomings in a cost/benefit analysis done by 
the Corps have been well documented by the GAO, the National 
Academy of Sciences and the Army Inspector General. To its 
credit, the Corps has moved aggressively to address these flaws 
and improve its planning processes. The Corps has also taken 
steps to be more cooperative and reorganize so that stove-
piping no longer exists.
    In conclusion, I must note that we are not here to revisit 
the Water Resource Development Act, which passed the House by 
more than 390 votes. We are not here to criticize the Corps or 
any part of government for the purpose of making points in the 
press. We are here today to find out primarily if the 
relationship between Congress and the Corps has led to mixed 
messages, excess projects and insufficient funds.
    I certainly look forward to hearing from each of the 
witnesses. I certainly want to hopefully set in motion in your 
minds the fact that this Congressman recognizes that Congress 
is clearly part of the problem in the Corps today and in the 
quantity of backlog, some dating 25 years, that have never been 
fully funded.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T9708.001
    
    [GRAPHIC] [TIFF OMITTED] T9708.002
    
    Mr. Issa. Again I look forward to hearing from our esteemed 
guests. Mr. Douglas Lamont, Deputy Assistant Secretary of the 
Army for Project Planning. I thank you for being here. Thank 
the Corps for making you available on relatively short notice. 
I realize there are several people juggling their schedules to 
make this happen.
    Ms. Anu Mittal, Director, Natural Resources and 
Environmental Team of the Government Accountability Office. 
Thank you for being here and again thank you for the work that 
the GAO has already done.
    Mr. Steve Ellis, vice president of Taxpayers for Common 
Sense. Thank you for being here. We live and die by our 
watchdog organizations here and I do emphasize and die.
    And Ms. Elizabeth Birnbaum, vice president and general 
counsel, American Rivers.
    Thank you all for being here. As I mentioned earlier, for 
all of you and anyone who you are going to have assist you, I 
would ask that you stand now and be sworn in.
    [Witnesses sworn.]
    Mr. Issa. I indicate that all said affirmative and the one 
gentleman in the back, if you would also give the recorder your 
name and spelling, that will help. And please have a seat.
    The ranking member is on her way back. As you probably 
know, we have the president of Liberia speaking before a joint 
session. I ducked out early but for appropriate reasons, some 
of the Members will be coming in afterwards. So the good news 
is you miss an opening statement, although she may want to give 
it when she gets in.
    But Mr. Lamont, if you would begin.
    Oh, and I will ask and I will clearly get unanimous consent 
that all of your written testimony be placed in the record, 
which will allow you to go off of your testimony and add or 
modify as you see fit. In fairness to so many speakers, try to 
be about 5 minutes. If it runs over a little bit, we certainly 
would be understanding. Thank you.

STATEMENTS OF DOUGLAS W. LAMONT, DEPUTY ASSISTANT SECRETARY OF 
THE ARMY FOR PROJECT PLANNING, ACCOMPANIED BY CLAUDIA TORNBLOM, 
   DEPUTY ASSISTANT SECRETARY FOR MANAGEMENT AND BUDGET, AND 
    THOMAS WATERS, CHIEF, PLANNING AND POLICY; ANU MITTAL, 
    DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, GOVERNMENT 
 ACCOUNTABILITY OFFICE; STEVE ELLIS, VICE PRESIDENT, TAXPAYERS 
FOR COMMON SENSE; AND S. ELIZABETH BIRNBAUM, VICE PRESIDENT FOR 
              GOVERNMENT AFFAIRS, AMERICAN RIVERS

                 STATEMENT OF DOUGLAS W. LAMONT

    Mr. Lamont. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. Thank you for the opportunity to 
testify on strengthening the Nation's infrastructure, U.S. Army 
Corps of Engineers planning priorities.
    The Corps of Engineers civil works program provides a 
framework to develop reasoned environmental and engineering 
solutions to support the water resources needs of our Nation. 
Over the last few years the Corps has implemented several 
initiatives to improve its planning processes and maintain and 
strengthen its planning expertise.
    Mr. Issa. Is the green light lit?
    Mr. Lamont. Yes, sir, it is. Shall I move closer?
    Mr. Issa. We may be able to adjust it but if you would move 
as close as you can, I would appreciate it.
    Mr. Lamont. These initiatives include revisions to the 
planning guidance, the planning models improvement program, 
peer review, the establishment of planning centers of 
expertise, planner capability development, and project 
priority-setting. I would like to briefly describe each of 
these initiatives for you.
    The Corps water resources planning is guided by the U.S. 
Water Resources Council's 1983 Economic and Environmental 
Principles and Guidelines for Water and Related Land Resources 
Implementation Studies. The analyses required for individual 
project decisions go well beyond the calculation of benefit and 
cost ratios. Systematic evaluation of projects of different 
scales and scopes is required so that tradeoffs among different 
mixes of project purposes and alternative solutions can be 
identified.
    Using the Principles and Guidelines as the basic analytical 
framework, the Corps has developed its planning guidance in 
response to evolving national priorities and congressional 
direction, which include considerations such as greater 
emphasis on environmental protection and restoration and 
greater collaboration among project interests.
    Recently the Corps has issued guidance to broaden the 
planning considerations through collaborative watershed-based 
planning and to more fully document alternative plans' 
beneficial and adverse effects in the areas of national 
economic development, environmental quality, regional economic 
development, and other social effects. This approach would 
provide a basis for more comprehensive solutions to complex 
water resource challenges.
    The use of technical models is part of the science and 
engineering that form the foundation of our investment decision 
documents. To ensure the quality and credibility of the Corps' 
models, the Corps has implemented a Planning Models Improvement 
Program. This program enhances the planning capability of the 
Corps by requiring the use of certified and defensible 
technical models in the development of its decision documents. 
The use of the certified models will improve the Corps' ability 
to provide theoretically and technically sound data for 
decisionmaking. The guidance and emphasis of this program 
should also, in the long term, result in significant 
efficiencies in conducting planning studies.
    Early last year the Corps adopted a peer review process as 
called for in the Information Quality Act. Our peer review 
process closely follows the Final Information Quality Bulletin 
for Peer Review issued by the Office of Management and Budget 
in 2004. The purpose of peer review is to ensure that the 
technical quality of Corps documents is evaluated by a group of 
independent reviewers not involved with the report production. 
Potential projects that are controversial, precedent-setting or 
have significant national effects will also require external 
peer review by experts outside the Corps of Engineers.
    In addition, external peer review is added in most cases 
where the risk and magnitude of a proposed project are such 
that a critical examination by a qualified person or a team 
outside the Corps is necessary.
    Further, the Corps has established a Civil Works Review 
Board composed of Corps Senior Executive Service personnel and 
a deputy commanding general for the Corps of Engineers to 
determine if the planning recommendations of the Corps 
districts are ready for formal State and agency review and 
circulation of a proposed Report of the Chief of Engineers.
    In August 2003 the Director of Civil Works designated six 
national Planning Centers of Expertise to enhance the Corps' 
planning capability for inland navigation, deep draft 
navigation, ecosystem restoration, hurricane storm damage 
reduction, flood damage reduction, and water management and 
reallocation. The centers have key roles in maintaining and 
strengthening planner core competencies within the Corps, 
providing technical assistance, providing independent review, 
transferring the latest technology, and sharing lessons learned 
and best practices throughout the Corps' Planning Community of 
Practice.
    With the increasing maturity and development of these 
centers, the Corps can more widely leverage its resources 
regionally and nationally. Fully functioning centers will 
provide leadership for the Corps planning process nationwide, 
support the regional technical specialists, provide for 
independent technical reviews, ensure certified models are used 
in decisionmaking documents, share lessons learned, develop 
core training modules and oversee the implementation of new 
guidance.
    The ability of an organization to work with not only the 
scientific and engineering aspects of water resources but also 
the economic and environmental components depends upon a multi-
talented, experienced work force. One way the Corps is 
addressing the need for experienced planners is through the 
Planning Associates Program that is an advanced training 
opportunity for Corps water resource planners at the journeyman 
level. The goals of this program are to broaden the planners' 
competencies in solving complex water resources problems, to 
strengthen their leadership skills, and to retain critical 
planner capability within the Corps of Engineers.
    The Corps has also established an Advanced Degree Program 
in Integrated Water Resources Planning and Management that has 
been created in close partnership between the Universities 
Council on Water Resources and the Corps of Engineers. It is 
designed to provide the next generation of Corps water 
resources professionals with a requisite skill set to address 
multi-objective planning and management. Planners completing 
the program earn a masters degree or doctorate from one of the 
participating accredited universities.
    The Corps has played and continues to play a large role in 
the development and management of the Nation's water and 
related land resources. The administration's 2007 budget 
incorporates objective, performance-based metrics for the 
construction program, funds the continued operation of 
commercial navigation and other water resource infrastructure, 
and supports the restoration of nationally and regionally 
significant aquatic ecosystems, with emphasis on the Florida 
Everglades, the Upper Mississippi River, and the coastal 
wetlands of Louisiana.
    Mr. Chairman, the Corps of Engineers is committed to 
staying on the leading edge of service to the Nation. I am 
confident that the planning process improvements and 
performance-based budgeting recently undertaken by the Corps 
have strengthened our ability to be responsive to the Nation's 
complex water resources needs. I will be happy to answer any 
questions, sir.
    [The prepared statement of Mr. Lamont follows:]

    [GRAPHIC] [TIFF OMITTED] T9708.003
    
    [GRAPHIC] [TIFF OMITTED] T9708.004
    
    [GRAPHIC] [TIFF OMITTED] T9708.005
    
    [GRAPHIC] [TIFF OMITTED] T9708.006
    
    [GRAPHIC] [TIFF OMITTED] T9708.007
    
    [GRAPHIC] [TIFF OMITTED] T9708.008
    
    Mr. Issa. Thank you. Ms. Mittal.

                    STATEMENT OF ANU MITTAL

    Ms. Mittal. Mr. Chairman, we are pleased to be here today 
to discuss the Corps of Engineers' civil works planning and 
project management processes. My testimony today is based on 
five reports issued by GAO over the last 4 years and focuses on 
two specific aspects of the civil works program. First I will 
cover shortcomings that we have identified and the economic 
analyses used by the Corps to support its planning decisions on 
specific civil works projects. And second, I will cover the 
Corps' lack of an effective financial planning and priority-
setting process for managing its civil works appropriations.
    As you know, before undertaking a civil works project, the 
Corps generally completes a two-phased planning study. This 
two-phased process helps inform congressional decisionmakers 
about whether or not to authorize a civil works project and 
helps determine if Federal investment is warranted. As part of 
this process, the Corps analyzes and documents whether the 
costs of constructing the project are outweighed by the 
benefits provided by the project.
    Consequently, the accuracy and reliability of the Corps' 
cost/benefit analysis is critical to ensuring that only the 
most beneficial projects are proposed to decisionmakers. 
However, our reviews of individual civil works projects and 
activities have found that the results of the Corps' analysis 
are often questionable and are inadequate to support this kind 
of strategic decisionmaking.
    Specifically, when we reviewed the Corps' cost/benefit 
analyses for four different projects and activities, we found 
that they were fraught with errors, mistakes and 
miscalculations. These analyses often used invalid assumptions 
and outdated data to arrive at their conclusions. In each of 
our reviews we found that the Corps' analyses typically 
understated the cost of a project and overstated its benefits. 
For example, when we have tried to recalculate the benefits of 
some of these projects we have only been able to find credible 
support for about a fraction of the benefits claimed by the 
Corps.
    More troubling is the fact that these analyses went through 
a three-tiered Corps internal review process but none of these 
reviews detected any of the problems that we uncovered. This 
raises serious questions in our minds about the adequacy of the 
Corps' internal reviews.
    In response to our report, usually at the direction of the 
Congress, the Corps has addressed or is in the process of 
addressing the specific issues identified relating to these 
individual projects. However, we remain concerned about the 
extent to which these problems are systemic in nature and 
therefore may be prevalent throughout the rest of the Corps' 
civil works portfolio. Effectively addressing these issues may 
require a more global and comprehensive revamping of the Corps' 
project planning processes rather than a piecemeal approach.
    We also undertook a review last year on how the Corps 
manages its appropriations for the civil works program. We 
found that the Corps did not have an effective financial 
planning and management system for these accounts. As a result, 
the Corps could not identify the highest priority projects 
across hundreds of authorized projects and allocate 
appropriated funds to them in an efficient manner. To manage 
its appropriated funds, we found that the Corps relied on a 
just-in-time reprogramming approach and moved funds among 
projects as needed.
    The benefit of this just-in-time approach was that it 
provided funds rapidly to projects that had unexpected needs. 
However, this approach also resulted in many unnecessary and 
uncoordinated movements of funds among projects. We found that 
over a 2-year period the Corps moved over $2.1 billion by 
conducting over 7,000 reprogramming actions and many of these 
actions were conducted for reasons that were inconsistent with 
the Corps' own guidance.
    In response to the findings in our report, the Congress has 
directed the Corps to revise its procedures for managing its 
civil works appropriations starting in fiscal year 2006. The 
Corps has been directed to reduce its reliance on reprogramming 
actions and institute a more rational financial discipline for 
the civil works appropriations accounts.
    In closing, Mr. Chairman, the recurring themes in our 
reviews of individual Corps projects indicate that the Corps' 
track record for providing reliable information to assess the 
merits of undertaking certain civil works projects and managing 
its appropriations for this program is spotty, at best. This is 
of particular concern in a time when decisionmakers have to 
determine how to best provide increasingly scarce Federal 
resources to hundreds of competing civil works needs across the 
country.
    This concludes my prepared statement. I would be happy to 
answer any questions.
    [The prepared statement of Ms. Mittal follows:]

    [GRAPHIC] [TIFF OMITTED] T9708.009
    
    [GRAPHIC] [TIFF OMITTED] T9708.010
    
    [GRAPHIC] [TIFF OMITTED] T9708.011
    
    [GRAPHIC] [TIFF OMITTED] T9708.012
    
    [GRAPHIC] [TIFF OMITTED] T9708.013
    
    [GRAPHIC] [TIFF OMITTED] T9708.014
    
    [GRAPHIC] [TIFF OMITTED] T9708.015
    
    [GRAPHIC] [TIFF OMITTED] T9708.016
    
    [GRAPHIC] [TIFF OMITTED] T9708.017
    
    [GRAPHIC] [TIFF OMITTED] T9708.018
    
    [GRAPHIC] [TIFF OMITTED] T9708.019
    
    [GRAPHIC] [TIFF OMITTED] T9708.020
    
    [GRAPHIC] [TIFF OMITTED] T9708.021
    
    [GRAPHIC] [TIFF OMITTED] T9708.022
    
    [GRAPHIC] [TIFF OMITTED] T9708.023
    
    Mr. Issa. Thank you. And I want to thank you for your 
testimony and the other testimonies arriving in a timely 
fashion.
    Mr. Lamont, I want to thank the Corps for getting theirs in 
to OMB on time. I will mention that as we are trying to put 
together questions, OMB held it up until 6 p.m. last night. So 
hopefully we will be thorough in our questions and the minority 
counsel when they arrive I am sure are going to somewhat have 
the same story of feeling that you did not blind-side them but 
they did not have a lot of notice.
    Mr. Lamont. Thank you for your understanding.
    Mr. Issa. We certainly understand the Corps was timely in 
its delivery to the administration.
    Mr. Ellis.

                    STATEMENT OF STEVE ELLIS

    Mr. Ellis. Thank you. Good afternoon, Mr. Chairman. I am 
Steve Ellis, vice president of programs at Taxpayers for Common 
Sense, a national nonpartisan budget watchdog. Thank you for 
holding this hearing on the U.S. Army Corps of Engineers' 
planning process and project priorities.
    I want to be clear from the outset that I have a great deal 
of respect for the Corps and for Congress. However, we have 
been significantly concerned about the well-documented waste of 
taxpayer dollars on our Nation's water resources program.
    Over the last several years there have been numerous 
studies into the Corps' shortcomings, some of which were just 
mentioned. In a more direct way, Katrina exposed many of these 
same weaknesses. It appears Congress's response has been to do 
nothing because the lack of strong rules, easily manipulated 
economics, and a priority-free environment lends itself to pork 
barrel spending and political machinations.
    Congress and the Corps have become, wittingly or 
unwittingly, partners in wasting the U.S. taxpayers' money. The 
agency's roughly $5 billion budget is almost entirely made up 
of earmarks for projects. By courting Members of Congress, the 
Corps helps ensure that their budget level is maintained. The 
Corps takes care of Congress and Congress takes care of the 
Corps.
    The Army Inspector General pointed out that for the Corps, 
``the budget process was deemed a first-half irrelevancy. The 
measure of effectiveness of the divisions and districts was the 
amount of funds actually appropriated by Congress.''
    Then chairman of the Energy and Water Appropriations 
Committee, Sonny Callahan, indicated his interest in getting 
the Dog River in Mobile, AL dredged because it had silted in 
too much for even recreational traffic. Recreational dredging 
is not a Corps mission, so the project was redefined as 
environmental restoration because as noted in an internal Corps 
memo, ``The project is Congressman Callahan's personal 
initiative. The yellow dot on the photo below shows Mr. 
Callahan's Mobile residence in relation to the Dog River.'' I 
can tell you that it was right next door. The Dog River was his 
back yard.
    The Corps is incapable of correcting itself. For example, 
dredging projects on the Delaware and the Columbia Rivers were 
found by independent experts to not be economically justified, 
returning pennies for every dollar invested. In response, the 
Corps created review panels but then ignored serious economic 
shortcomings in the projects, declared victory, and moved ahead 
with them.
    Part of the blame lays with the rules that govern project 
selection, the Principles and Guidelines. More than 20 years 
old, these rules need to be revised to consider new factors in 
the benefit/cost analysis, updates to the economic methodology 
and reorienting the civil works program toward fewer and less 
structural projects.
    For example, the Corps' current method of calculating 
benefits has encouraged high-risk development by creating a 
false sense of confidence in flood damage reduction projects. 
To be sure, flood insurance and disaster relief payments have 
also contributed but now a levee that is built to protect 
soybeans can end up growing subdivisions.
    Since the 1920's the Federal Government has spent more than 
$123 billion on flood damage reduction projects. During that 
same period, average annual flood damages have nearly trebled 
to $6 billion.
    As projects churn through the flawed development process, 
they end up in a heap called a backlog. The Corps has a $58 
billion backlog of authorized projects that have yet not been 
constructed. There is no prioritization system for projects, so 
the $2 billion in annual construction funding is spread thinly 
across many projects.
    Corps appropriations include irrigation systems, wastewater 
treatment, and water supply facilities, none of which are 
primary Corps missions. The Corp is involved in building 
schools. Building and renovating schools is a laudable job but 
should not be a priority of the Nation's premier water 
resources agency.
    The lack of priorities and the symbiotic Corps-Congress 
relationship have significant costs. President Bush has 
frequently criticized the pre-9/11 mindset. Well, those making 
the much-ado-about-nothing argument on the Corps are suffering 
from a pre-Katrina mindset. With more than 1,000 lives lost and 
a total cost likely exceeding $100 billion, we need to 
fundamentally alter our country's approach to water resources 
if we are to avoid this devastation in the future.
    After Katrina hit and the levees failed in New Orleans, 
many said we did not spend enough money. No, we did not spend 
enough money wisely. Louisiana took home $1.9 billion in Corps 
funding in the 5 fiscal years preceding Katrina. That was more 
than any other State. California came in a distant second at 
less than $1.4 billion. We had the money. It went to the wrong 
things, like a new lock on the Industrial Canal in New Orleans. 
Levees on the very same Industrial Canal failed, inundating the 
lower Ninth Ward. In retrospect, lock or levees? I hope our 
priorities would be different today.
    In closing, to reign in this culture of waste, strong new 
measures must be enacted. This includes earmark and lobby 
reform. It also means modernizing the Corps by establishing 
independent review, developing a prioritization system, and 
updating the Principles and Guidelines. The earmarked project-
by-project budgeting must be ended. It is up to Congress to 
reign in the Corps and the excesses of their fellow lawmakers.
    Thank you for holding this hearing and we hope that we can 
work together to bring the Corps of Engineers into the 21st 
century and to meet our country's pressing water resources 
needs in a fiscally responsible manner. Thank you.
    [The prepared statement of Mr. Ellis follows:]

    [GRAPHIC] [TIFF OMITTED] T9708.024
    
    [GRAPHIC] [TIFF OMITTED] T9708.025
    
    [GRAPHIC] [TIFF OMITTED] T9708.026
    
    [GRAPHIC] [TIFF OMITTED] T9708.027
    
    [GRAPHIC] [TIFF OMITTED] T9708.028
    
    [GRAPHIC] [TIFF OMITTED] T9708.029
    
    [GRAPHIC] [TIFF OMITTED] T9708.030
    
    Mr. Issa. Thank you. That was not only almost exactly on 
the 5-minutes but you alternated very well between the failures 
of the Corps and the failures of the Congress. I thought that 
was pretty fair.
    Ms. Birnbaum.

               STATEMENT OF S. ELIZABETH BIRNBAUM

    Ms. Birnbaum. Good afternoon, Mr. Chairman. Thank you for 
the opportunity to appear today. My name is Liz Birnbaum and, 
as you mentioned, I am the vice president for government 
affairs at American Rivers, the Nation's leading river 
conservation organization, with over 40,000 members and working 
with thousands of local watershed and river groups across the 
country. We also co-chair the Corps Reform Network, a growing 
coalition of more than 135 organizations from across the 
country.
    To protect lives, communities, the economy, and the 
environment, Congress must modernize Corps of Engineers project 
planning. No stronger evidence is needed than the horrifying 
flooding of New Orleans, which highlighted many critical 
problems with the Corps' project planning and construction.
    First, Corps projects repeatedly suffer from flawed project 
planning and design. Hurricane Katrina was a Category 3 storm 
when it reached New Orleans, a storm the flood walls were 
supposed to protect against. The floodwall design did not meet 
the Corps' own guidelines, and the Corps failed to act on 
additional concerns about unstable soils and levee heights. A 
panel of the American Society of Civil Engineers has concluded 
that the system's failure demonstrates that ``fundamental flaws 
were part of how the system was conceived and developed.''
    Second, New Orleans exemplifies how many Corps projects 
destroy natural systems that provide the first line of defense 
against floods. Since the 1930's, Louisiana has lost about 
1,900 square miles of coastal wetlands, which protect against 
storm surges. The Corps contributed to these wetlands losses 
with upstream projects that blocked the sediment necessary to 
nourish coastal wetlands and downstream levees that pushed the 
remaining sediment load out into the Gulf.
    Another Corps project, the Mississippi River Gulf Outlet, 
or Mr. GO, also damaged 20,000 acres of coastal wetlands. But 
more than that, community leaders, activists and scientists had 
warned for years that Mr. GO would funnel storm surges directly 
to the city, yet the Corps did not act. The initial flooding 
that devastated St. Bernard Parish and the lower Ninth Ward 
came from Mr. GO.
    Third, the Corps does projects that encourage development 
in high-risk areas, placing people in harm's way. After 
Hurricane Betsy hit New Orleans in 1965, killing 75 people, 
instead of reinforcing levees located at the city's edge, the 
Corps planned a new system stretching miles into uninhabited 
wetlands. The Corps then claimed the increased property values 
of the newly drained wetlands as an economic benefit. 
Tragically, many of these wetlands became the impoverished 
eastern Orleans Parish neighborhoods that suffered the brunt of 
Katrina's flooding.
    Fourth, Corps projects and project funding do not 
prioritize national needs. While Louisiana receives far more 
money for Corps projects than any other State, as Steve 
mentioned, the funding has not been directed to priority flood 
protection projects. Over the past 5 years Congress sent $1.9 
billion, again as Mr. Ellis mentioned, none of which went to 
upgrade New Orleans' defenses. New Orleans' repeated requests 
for increased flood protection garnered only a small 
appropriation to study the problem.
    The flooding of New Orleans is by no means the only 
evidence of the need to modernize Corps projects. The flood of 
studies listed in the attachment to my testimony, from the 
National Academy of Sciences, the Government Accountability 
Office, the Army Inspector General, and independent experts, 
shows that the Corps' problems are pervasive, affecting 
projects nationwide.
    Although the problems are large, the solutions are 
manageable. A bill recently introduced in the Senate, S. 2288, 
would make necessary changes.
    First, input from independent experts must be integrated 
into Corps project planning. A transparent process should allow 
independent outside experts to examine whether projects will 
meet needs while minimizing costs and environmental harm. S. 
2288 would subject all projects costing more than $25 million 
or projects deemed controversial to review by an outside panel 
of experts. This input would then receive weight in the Corps' 
planning process.
    Second, Congress should require the Corps to protect 
natural systems. In addition to avoiding harm to rivers and 
wetlands whenever possible, the Corps must mitigate any impacts 
that cannot be avoided. S. 2288 would require the Corps to meet 
the same mitigation requirements as everyone else does. 
Wetlands mitigation offers a host of benefits, including 
natural flood protection. One wetland acre, saturated one foot 
deep, retains 330,000 gallons of water, enough to flood 13 
average homes thigh deep.
    Third, the Corps' planning guidelines must be modernized. 
The Corps is operating under 20-year-old planning guidelines 
that promote the destruction of the healthy natural ecosystems 
that defend against storm surges and flooding but allow the 
Corps to recommend projects in high-risk areas, luring people 
into harm's way and that do not adequately address loss of 
life. Indeed, under the current rules, the Corps can count 
draining wetlands as an economic benefit of a project. S. 2288 
would reinstate the Water Resources Council to address these 
and other failings of the Corps' planning guidelines, in 
consultation with the National Academy of Sciences.
    And here I am going to accept the offer to step off my 
written testimony and mention the Corps cannot do this itself. 
The Water Resources Council established these guidelines in 
1983 and then disbanded. It has not met since then. The Corps 
cannot fix this problem itself.
    Finally, Congress should ensure that the Corps gives 
Congress necessary information to prioritize projects that will 
provide vital flood protection for urban areas and critical 
infrastructure, and avoid damage to natural flood protection 
systems. S. 2288 would ask the Water Resources Council to 
analyze how Corps projects can reflect national priorities for 
flood damage reduction, navigation, and ecosystem restoration. 
It would require the Corps to plan projects that avoid the 
unwise use of floodplains and that restore and maintain natural 
systems that defend against flooding.
    We urge Congress to address these lessons so tragically 
highlighted by Hurricane Katrina and we urge Congress not to 
pass another Water Resources Development Act unless needed 
reforms are included. We would be happy to work with the 
committee to make these changes a reality.
    [The prepared statement of Ms. Birnbaum follows:]

    [GRAPHIC] [TIFF OMITTED] T9708.031
    
    [GRAPHIC] [TIFF OMITTED] T9708.032
    
    [GRAPHIC] [TIFF OMITTED] T9708.033
    
    [GRAPHIC] [TIFF OMITTED] T9708.034
    
    [GRAPHIC] [TIFF OMITTED] T9708.035
    
    [GRAPHIC] [TIFF OMITTED] T9708.036
    
    [GRAPHIC] [TIFF OMITTED] T9708.037
    
    [GRAPHIC] [TIFF OMITTED] T9708.038
    
    [GRAPHIC] [TIFF OMITTED] T9708.039
    
    [GRAPHIC] [TIFF OMITTED] T9708.040
    
    [GRAPHIC] [TIFF OMITTED] T9708.041
    
    [GRAPHIC] [TIFF OMITTED] T9708.042
    
    [GRAPHIC] [TIFF OMITTED] T9708.043
    
    [GRAPHIC] [TIFF OMITTED] T9708.044
    
    Mr. Issa. Thank you all. Thank you for very much staying 
within, I think, a good timeframe. And for all of you went off 
your prepared speeches, you are allowed to go off your prepared 
speeches and I always appreciate that.
    I will begin questioning. This hearing is not about 
Katrina. I want to make that clear. But it is inevitable that 
Katrina is a poster child for what the Corps should be in the 
future and perhaps what it has not been, and what Congress's 
role has not been in the past. So I hope you will all look at 
this as anecdotal questions, because we are using Katrina, but 
not that this committee is investigating Katrina.
    Mr. Lamont, Ms. Birnbaum's testimony claims the Corps 
knowingly used incomplete, outdated weather information in the 
design of the levees that were to protect New Orleans. I am 
astonished that the Corps may use obsolete data for projects 
the primary purpose.
    This is an allegation that I have heard before. Would you 
like to address it, please, of how old the data was, why there 
was not an update before the levees were produced and how it 
may have impacted the levees?
    Before you answer, I would ask that you primarily 
concentrate on what this committee should look to doing in the 
future. Again I do not want this to be about a specific event 
but rather, is there a flaw that either has been corrected or 
could be corrected and if so, what Congress would also 
participate in doing. Please, Mr. Lamont.
    Mr. Lamont. Thank you, Mr. Chairman. I am involved with the 
forensic investigation of what happened in New Orleans. Let me 
give you some quick background on that, to put this in proper 
context.
    The Chief of Engineers, General Strock, set up an 
Interagency Performance Evaluation Task Force composed of some 
of the best and brightest people within the Corps, outside the 
Corps, and in academia, to try to find out exactly what 
happened. This is the first time that I have heard, for 
example, that there may have been an allegation of parameters 
that may have been looked aside.
    As a professional engineer myself, and engineers in the 
community and the Corps of Engineers, the first thing that you 
are going to look at is the available information and the 
existing design criteria and codes at the time. A lot of these 
were designed back in the 1960's and I do not know this as a 
fact but I suspect that the design criteria have changed over 
time.
    The Interagency Performance Evaluation Task Force is also 
having the results of their input reviewed separately by the 
American Society of Civil Engineers. Mr. Woodley, who is the 
Assistant Secretary of the Army for Civil Works, has also 
established under Mr. Rumsfeld's direction a contract with the 
National Academies of Science to independently review what the 
ASCE is externally reviewing and what the Corps of Engineers 
Interagency Task Force is looking at.
    The heart of this is that the chief of engineers and Mr. 
Woodley are looking for the answers in a transparent fashion. 
We are trying to get to the bottom of exactly what happened, to 
determine lessons learned, and then incorporate that in the 
reconstitution of the levee system in New Orleans.
    I have no personal knowledge, sir, of the allegations that 
I just heard. I think this needs to be further examined as this 
comes about. We are looking for a June 1st date to wrap up the 
Interagency Performance Task Force information and provide that 
information to the NRC panel and also to ASCE. That is the best 
information I have at this time.
    Mr. Issa. OK. And what I would like to do is give you a 
copy. This is from a site Greenwire that specifically says that 
the Corps of Engineers knew the threat to the levees as early 
as 1972. It does quote that the knowledge, the research was 
done in 1959 for a worst-case scenario, so you were very close 
to accurate on it being the 1960's.
    I would like to give this to you so that in answer after 
the fact, if you could respond to the specifics of this as you 
look at when the design was done and whether or not the weather 
data of 1959 was, in fact, what was used, because this is 
something that--like anything you pull down off the Internet, 
as good as it might seem, you would certainly like to give an 
opportunity for fair response. So if you will make sure they 
get a copy of it.
    I would like to go to something, and I make it a point not 
to try to characterize--I characterize folksy things from my 
own life, but I try not to make things about my own district. 
And with 88 percent of your funds earmarked in fiscal year 
2006, I think way too many of us have lived and died based on 
how much we earmark for our own districts. And the only thing I 
can say in defense is if we do not do it, the remaining amount 
is not sufficient for you to do those jobs in our districts 
that need to be done, either.
    But I would like to talk briefly about one that I would 
like your response on. The San Luis Rey River project, which is 
over a decade old, was a project that was to be completed in 
about 6 years, 5 to 6 years. It ran out of funding and 
additionally, the maintenance that was to be done during that 
time was not done. So what started off as a flood prevention 
levee now is, in fact, habitat in which the Corps of Engineers 
on an annual basis pays to exchange eggs from smart birds to 
dumb birds so that the dumb bird will continue to be around as 
an endangered species. The Corps of Engineers manually removes 
arrondo and other invasive species so as to minimize the 
flooding while, at the same time, not being able to disturb 
habitat in general.
    Isn't the best--and this comes to the real question--isn't 
the best way for the Corps to do a project to start the 
project, have full funding on the project until the project is 
completed, regardless of whether there is a powerful 
appropriator representing that district or not? And shouldn't 
there be a process in which a project in its development says 
if it is not done on this time schedule, there will be 
secondary or potential secondary costs? Shouldn't that be part 
of the whole way the Corps allocates its resources?
    Mr. Lamont. Mr. Chairman, if I could, I would like to ask 
our Deputy for Management and Budget, who is emminently more 
qualified than myself, to try to answer that.
    Mr. Issa. Well, I hit a home run if I can get the big guns 
in here. Thank you.
    Ms. Tornblom. Thank you, Mr. Chairman. It is easy to say 
that the Corps budget is largely earmarked, but many of those 
are the President's earmarks. Some of them are congressional 
earmarks that are added to the budget.
    The Corps budget is that way because each project is 
individually authorized. We do not have underlying generic 
authorization in most cases. So the program has evolved over 
the decades as you see it now, individual project funding.
    On occasion the administration has proposed fully funding 
projects. That was never found acceptable by the Congress, for 
I am sure a variety of reasons. We are, however, moving 
steadily toward prioritizing the project based on performance 
and how near they are to completion and being much more 
efficient about the way we use the funds, reducing the number 
of reprogrammings and the number of continuing contracts which 
require further funding in the future.
    Mr. Issa. I appreciate that but my real question was since 
I have one in my district that I have been up close and 
personal on, that has at least $18 million of mitigation 
required because on an annual basis during construction it was 
never cleared because funds were reprogrammed away.
    Now that is a personal, anecdotal, granted, but a personal 
observation where the Corps is now doing the work of Fish and 
Wildlife, spending Corps money on an annual basis in order to 
meet agreed-on requirements as a result of accidentally 
creating habitat in a project that was supposed to have 200-
year flood benefits, now may have less than a 100-year flood 
benefit. And just so you understand why this is so significant.
    I have advised and the attorneys for the city that 
contracted and should have already had full cost of maintaining 
the thing, I have advised them not to accept the project 
because there is no basis for them to take your problem, your 
habitat you have created, and take it on. There is no reason 
for them to spend the million dollars a year. So the $18 
million, if not spent, will mean that in perpetuity $1 million 
more a year will be spent by the Corps from your $5 billion 
budget to continue basically producing habitat because the city 
is not going to accept the output of the levees because it does 
not meet the spec that you agreed to, all of this because on an 
annual basis, the dredging was not done and the project was not 
completed. It was defunded and stretched out over more than a 
decade.
    Ms. Tornblom. We are trying to avoid stretching the money 
across as many projects, which has the effect that you just 
described, by concentrating the resources we do have on fewer 
projects that produce higher benefits for the Nation so that we 
can get them finished.
    Mr. Issa. Well, how do we do that as the Congress is really 
the question, and I want others to pipe in. Particularly Miss 
Mittal, you said, and I know all of you actually said the Corps 
cannot do it itself. There is a belief by the other three 
panelists that the Corps itself, which has 25-year-old projects 
that have been substantially unfunded but left on the books for 
all these years, is incapable of getting rid of a project and 
narrowing the scope to where within a $5 billion level of 
funding, you can do and realistically deal with.
    I mean it would be more than a decade if you took on no new 
projects to finish all the projects that you have in your 
backlog today. Is that a fair assessment, if I just do $5 
billion into $58 billion of known backlog? Is that a fair 
assessment?
    Ms. Tornblom. Your math is correct, sir.
    Mr. Issa. Thank you.
    Mr. Ellis. And I will get to the ranking member quickly 
because I think we need to get her in, too.
    Mr. Ellis. Absolutely, Mr. Chairman. I would just point out 
that the $5 billion is the total Corps budget. They only have 
$2 billion in construction funding, so your $58 billion is 
actually going to take a lot longer to finish than just a 
decade.
    Mr. Issa. I am not that young. That is why I picked a 
number I could deal with.
    Mr. Ellis. I understand. But I do think that there are two 
points that I would like to raise about this. One is that 
absolutely Congress is part of the problem in giving a little 
bit more money to the Corps and stretching it out further over 
more projects. In just the fiscal year 2007 budget that the 
president has proposed, there were 532 earmarks that he 
defunded that were in the fiscal year 2006 appropriation, so 
that was 532 projects that Congress essentially added to that 
budget last year.
    Also----
    Mr. Issa. You mean the President took away and we put back?
    Mr. Ellis. Well, you put in the fiscal year 2006 and then 
he specifically delineated those projects were not getting 
funding in fiscal year 2007. I imagine that a significant 
number of those, if not all of those, will reappear in the 
fiscal year 2007 budget for the Corps.
    The other point I would like to make is that in the Corps' 
planning, in their economic analyses of projects, they actually 
assume optimal funding when they do the economic analysis, the 
benefit/cost ratio. So there is some optimal timeline of 
building a project. If it is a $50 million project you could 
not spend all the $50 million in 1 year. It would take a couple 
of years.
    So let us say you take $10 million a year for 5 years to 
build a project. The Corps assumes that in their economic 
analysis. That has never happened. I do not think that has ever 
happened probably for a Corps project, where it has gotten 
every dime that it could have possibly spent in a particular 
year. So what the Corps is effectively----
    Mr. Issa. Hoover Dam would be the clear exception.
    Mr. Ellis. What that actually ends up meaning, though, is 
that it holds the cost down and it accelerates the delivery of 
the benefits. So it essentially skews the benefit/cost analysis 
to help justify projects when, in reality, it is going to cost 
more and the benefits are going to take longer to be achieved. 
So it actually ends up skewing it to justify more projects, as 
well.
    Mr. Issa. It is clear that we could have an infinite amount 
of questions. As soon as Miss Birnbaum has made her comment, I 
want to turn this over to the ranking member so she can get her 
questions in. Please.
    Ms. Birnbaum. I just want to comment that we are supporting 
the idea that there needs to be some sort of legislative way to 
prioritize Corps projects to meet the problems you are talking 
about and the bill I was talking about, S. 2288, would have the 
Water Resources Council do that every 2 years with a specific 
requirement that they balance maintaining the rankings with any 
new really important projects that might come along.
    So somebody has to sit back and balance any new important 
priorities, but also look at that consistency of funding that 
you are talking about and maintaining consistent priorities at 
the same time.
    Mr. Issa. Thank you.
    Ms. Watson.
    Ms. Watson. First, I want to apologize, Mr. Chairman, for 
being late and not hearing the presentations. So if I repeat 
something that has already been addressed, just let me know.
    I want to thank all the witnesses for coming down and I 
wanted to side with you, Mr. Chairman, that we have some 
problems in the State of California and I do not know how 
priorities are being set now that FEMA is operating under 
Homeland Security. From testimony I heard earlier today, the 
kind of bureaucracy that has been set up under Homeland 
Security automatically has an effect on FEMA where it cannot 
move as quickly to respond.
    Now we had one of the greatest disasters this country has 
ever known, Katrina, Wilma, and all the rest of the ladies, 
female names.
    Mr. Issa. Guys are getting their turn now but they are 
underproducing. It seems the big ones are still tending to be 
women on these hurricanes. Did you notice that?
    Ms. Watson. Well, you know, let us just take the names off 
and have Hurricane A and B and C and get out of that debate.
    Anyway, in all seriousness, I am really concerned about how 
we set priorities. What I read in the paper is all that I know 
because information, vital information is not always shared 
with the Members of the House. Just understand that.
    I want to commend my chair for going after some of these 
issues and doing oversight because, as you know, many of our 
committees do not do the oversight that we are responsible for.
    The question is I hear the Corps of Engineers trying to 
repair the 17th Street Bridge levee is using material that 
cannot last the strength of a category 3 landfall. I would like 
someone to respond to that.
    The other thing I need a response to, I understand that 
FEMA has people down there and they are not given work orders 
but they are getting paid the big bucks. And when we talk about 
the funding for FEMA to address the levees, why is it we have 
contractors that are there sitting on ships and sitting in 
mobile units waiting to work but they are getting paid?
    Now if my information is inaccurate, please correct me 
because all I know is what I read in the newspapers. Really, we 
do not get informed. Regardless of what you hear, we do not get 
informed.
    So can someone respond?
    Mr. Lamont. Yes, ma'am. To give you the best possible 
information, if I could, I would like to turn to Mr. Tom 
Waters, who could bring you up to speed on that.
    Ms. Watson. Please do.
    Mr. Issa. Please come up and sit in the hot seat.
    Mr. Waters. Thank you. I am not going to be able to give a 
good, definitive answer on the debris. I am sorry but I just do 
not have that information available.
    Ms. Watson. I am not talking about the debris. I am talking 
about addressing the needs of the levees, the materials and the 
cost of doing it and the time span in which it is supposed to 
be done. I understand there are people down there and they are 
not working, but they are getting paid.
    Mr. Waters. Yes, ma'am. And I----
    Ms. Watson. These are FEMA contracts.
    Mr. Waters. Right. And I just cannot answer that part of 
the question. I do not have enough information to provide you 
an answer in terms of what you are asking about the acquisition 
and how that is going with the debris. But we certainly can 
find out the answer to that and get it to you.
    Ms. Watson. I would like to give you something in writing 
and have you respond to us in writing.
    Mr. Waters. Yes, ma'am.
    On the question of materials on the 17th Street Canal, Mr. 
Lamont earlier gave a description of an effort that the Chief 
of Engineers and Mr. Woodley have commissioned using the 
National Academies, American Society of Civil Engineers and 
Corps of Engineers, probably the best group of experts ever 
convened in the country to examine what exactly has happened 
there. This is called the Interagency Performance Evaluation 
Task Force and they have made two public findings so far. The 
last one was released on March 10th.
    I am not going to be able to address the materials. That is 
a matter of public record, but the----
    Ms. Watson. Excuse me. Is that public record accurate?
    Mr. Waters. Well, it is a public record that is being 
reviewed by experts and yes, ma'am. We are bringing the best--
--
    Ms. Watson. OK. Well, let me tell you what I read.
    Mr. Waters. Yes, ma'am.
    Ms. Watson. That the materials that were in the levee, the 
one that broke, were inferior materials and now the Corps is 
using another material that will not withstand landfall at 
category 3. That is what I am reading.
    Mr. Waters. Yes, ma'am. And the final conclusions of what 
happened and why the levees were breached will be available--
the schedule for that is the first of June of this year. And I 
cannot address the materials. It is a work in progress, unless 
something is covered in the report that was published on March 
10th. That is about as good as I can do, I am afraid.
    Ms. Watson. Thank you for nothing. You cannot address it.
    Is there anyone that can address the work orders for the 
people who were called down to work on the levees? I understand 
they are not working and getting paid big dollars. Anyone? If 
you cannot address it, then do not respond.
    Mr. Lamont. We would be happy to take the question and 
answer it for the record to the best of our ability, ma'am.
    Ms. Watson. I will put it in writing.
    Mr. Lamont. As Ms. Tornblom has just pointed out to me, the 
issue relative to FEMA, we have no knowledge about.
    Ms. Watson. All right.
    Mr. Lamont. But we will investigate that and get back to 
you on that.
    Ms. Watson. Fair enough. I will send it to you in writing, 
I will share with the chair and other members of our committee, 
and I will share the response. Thank you.
    Mr. Issa. And I am going to ask unanimous consent that all 
Members, present or not present, be able to have followup 
questions and submit them to each of you in writing. 
Additionally, I would ask unanimous consent that the record be 
left open for 2 weeks or extended further by the majority and 
minority, if necessary, to allow for that.
    I will tell you that the efficiency of this has been 
excellent, but there is no question that we are going to have 
additional followup questions. I would like to thank you for 
beginning the process with us.
    I would like to summarize, in closing, that it appears very 
much at the end of this hearing, as it began, that the Congress 
is a willing and active culprit in the poor performance of the 
Corps' projects in that clearly if we have $58 billion of 
backlog projects, $2 billion in funding, and a larger and 
larger amount of funds that find themselves unintendedly going 
to the studies, the mitigation, various activities under the 
Endangered Species Act and others, as a result, those continue 
on an every-year basis while, in fact, the project itself may 
be at a virtual standstill.
    So I think that will characterize a lot of the questions we 
are going to have, not just for all of you but for the Members 
themselves as we begin to find out how we can one, eliminate a 
$58 billion backlog or two, fund it in a reasonable period of 
time.
    I will close, with the ranking member's permission, by 
letting you all know that when I entered Congress and actually 
when Ms. Watson entered Congress we had a similar backlog in 
military housing. We had a policy of talking about how special 
the troops were but not building them housing. Using public-
private partnerships and some other techniques, we have 
substantially reduced that. Hopefully, with the great minds 
that exist on both sides of this issue, we can begin to look at 
how we could eliminate the backlog with Congress of those that 
must be there.
    Last and least, I would charge all of you to, whether asked 
specifically or not, you are being asked now to give me as many 
projects that are still on the books for as many years as you 
can that, in fact, you believe should be eliminated and 
reauthorized if and only if Congress is willing to put 
substantial new dollars.
    We will followup with the rest in writing. I want to thank 
you for your time. I want to thank the audience, who came here 
to participate and to listen, for their attentiveness.
    And with that, I would yield to the ranking member.
    Ms. Watson. Thank you so much.
    My concern is this. I was not here when you discussed the 
projects and the timing, and so on, but we know that there are 
climate changes and we know that we are going to in a matter of 
few months get back into another hurricane season and we are 
going to have devastating hurricanes. And when we talk about 
the backlog, what are we doing to take into consideration if we 
are going to dump money into these projects, to do it in a more 
timely fashion?
    I take my own State of California. We are always prone to 
earthquakes. We know the big one is coming. Every 19 years we 
have a huge earthquake.
    So I hear about the backlog. I hear about the funding, Mr. 
Chairman. I hear that we are cutting funds. What are we doing 
to be ready in case there is another hurricane? What are we 
doing to address the fact that we are going to have another 
earthquake? We have them every day. I just want to know what 
kind of planning and thinking goes into it.
    Some things cannot be put off, and let me give you an 
example. In 1994 we had a huge earthquake in California. The 
freeway that went down, went down in my district, right, in the 
center of my district and affected the 405, affected the 10, 
affected the 5, the I-5, and so on. And the Governor had a plan 
and we were in the third segment. I said you cannot do that. I 
said you have to fix all freeways and you have to be able to 
see that they can withstand an earthquake that goes to 7. By 
the way, there is no 10 on the Richter Scale. It only goes to 
9. So you have to retrofit all of them at the same time because 
we never know where the next--we are on a fault line, so 
putting it off, you know, project one over several years and 
project two, project three, this lays us bare.
    So I am wondering can anyone respond to how we lay out what 
priority fixing of levees receives? We are having tremendous 
problems in the northern part of our State. I was just up there 
Sunday around the Sacramento area and we have flooding because 
the levees did not stand up.
    So how do you think this through and how do you plan? How 
do you set priorities? Can anyone respond?
    Mr. Lamont. Ma'am, I will give it a try.
    Ms. Watson. Thank you.
    Mr. Lamont. It is clearly a dynamic world that we are 
living in right now. There is definitely a limitation of 
resources that are available to fund projects.
    This is myself personally speaking as an engineer. This 
country is probably faced with looking at the infrastructure 
that is out there, looking at it from a regional or national 
basis, and then making some hard decisions by the 
administration, working with the Congress, and that is about as 
far as I would want to go right now.
    Ms. Watson. Do you want to add anything?
    Ms. Tornblom. I mentioned earlier what we are using to 
prioritize the construction projects, the remaining benefit/
cost ratios, looking at the performance, trying to finish 
projects that are under way.
    In terms of the levees you are speaking of, we are just 
right now taking another look at that since the Governor has 
elevated the issue and I expect some movement on that soon to 
raise the priority of that. We have been talking about it but 
you are probably right; we have not done much about it yet.
    Mr. Issa. OK. And with that, I am going to use the power of 
the gavel to thank you all and to say that I have no doubt this 
is not the last hearing on this subject.
    Ms. Watson. And may I have my opening statement included in 
the record?
    Mr. Issa. We made that by unanimous consent when I sat here 
alone.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T9708.045
    
    [GRAPHIC] [TIFF OMITTED] T9708.046
    
    [GRAPHIC] [TIFF OMITTED] T9708.047
    
    Mr. Issa. Thank you. With that, we are adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9708.048

[GRAPHIC] [TIFF OMITTED] T9708.049

[GRAPHIC] [TIFF OMITTED] T9708.050

[GRAPHIC] [TIFF OMITTED] T9708.051

[GRAPHIC] [TIFF OMITTED] T9708.052

[GRAPHIC] [TIFF OMITTED] T9708.053

    [The Army Corps of Engineers Response to Chairman's 
Questions follows:]

[GRAPHIC] [TIFF OMITTED] T9708.054

[GRAPHIC] [TIFF OMITTED] T9708.055

[GRAPHIC] [TIFF OMITTED] T9708.056

[GRAPHIC] [TIFF OMITTED] T9708.057

[GRAPHIC] [TIFF OMITTED] T9708.058

[GRAPHIC] [TIFF OMITTED] T9708.059

[GRAPHIC] [TIFF OMITTED] T9708.060

[GRAPHIC] [TIFF OMITTED] T9708.061

[GRAPHIC] [TIFF OMITTED] T9708.062

[GRAPHIC] [TIFF OMITTED] T9708.063

                                 <all>

</pre></body></html>
